<html>
<title> - THE SUCCESS OF THE 2000 CENSUS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





                     THE SUCCESS OF THE 2000 CENSUS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2001

                               __________

                            Serial No. 107-7

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
75-289                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Jane Cobb, Staff Director
              Andrew Kavaliunas, Professional Staff Member
                            Dan Wray, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 14, 2001................................     1
Statement of:
    Barron, William G., Acting Director, U.S. Bureau of the 
      Census, accompanied by John Thompson, Associate Director, 
      decennial census...........................................    26
Letters, statements, etc., submitted for the record by:
    Barron, William G., Acting Director, U.S. Bureau of the 
      Census, prepared statement of..............................    30
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, prepared statement of.......................    24
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    10
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    18
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     5

 
                     THE SUCCESS OF THE 2000 CENSUS

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2001

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2203, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Cannon, Souder, Clay and 
Maloney.
    Staff present: Jane Cobb, staff director; Chip Walker, 
deputy staff director; Mike Miguel, senior data analyst; Andrew 
Kavaliunas, professional staff member; Dan Wray, clerk; Tim 
Small, staff assistant; Michelle Ash, minority counsel; David 
McMillen and Mark Stephenson, minority professional staff 
members; and Earley Green, minority assistant clerk.
    Mr. Miller. Good afternoon. A quorum being present, the 
subcommittee will come to order.
    We will have some opening statements before we hear from 
Mr. Barron, and then we'll have a chance to have some 
clarifications and some questions.
    Good afternoon. Welcome to the first hearing of the 
Subcommittee on the Census of the 107th Congress. I would like 
to welcome our new members to the committee, our new vice 
chair, Chris Cannon, who is not here yet; Mr. Barr from 
Georgia. I would also like to welcome Mr. Souder, a returning 
member.
    On the other side we now have a new ranking member, Mr. 
Clay of Missouri, and we welcome back Mr. Davis and Mrs. 
Maloney, and I wish Mrs. Maloney the best in her new role as a 
ranking member on the Financial Services Subcommittee.
    Mrs. Maloney. Thank you, Mr. Chairman.
    Mr. Miller. On December 28, 2000, Director Prewitt said the 
following, ``Never have we been so diverse, never have we been 
so many and never have we been so carefully measured.''
    Ladies and gentlemen, today is a good news day. The Census 
Bureau has announced that the undercount of African Americans 
and Hispanics have been cut by more than half, and the 
undercount of American Indians reduced by more than two-thirds. 
Also, contrary to recent questionable studies, there has been 
notable improvement in the counting of infants and children. 
These inroads are remarkable.
    A great deal of gratitude goes out to the Nation for making 
this the most accurate and inclusive census in our Nation's 
history. Particularly the thousands of employees at the Census 
Bureau are to be congratulated for a job well done. The field 
staff and enumerators that went door to door did a tremendous 
job of counting our Nation. Also, the thousands of Census 
Bureau partners on the State and local level spearheaded an 
outreach effort that was extraordinarily successful in making 
people aware and getting people to respond to the census.
    Congress, too, should be proud of the 2000 census. Congress 
ensured that the funding levels needed to accurately count 
America were provided. Congress ensured that the Census Bureau 
developed an appropriate plan for the 2000 census and stuck to 
it. While at times some people thought our oversight to be 
burdensome, it is readily apparent that our focus on improving 
the census played an important role.
    Of course, we weren't alone in our oversight role. The 
Census Monitoring Board, the General Accounting Office and the 
Commerce Department's Office of Inspector General were also 
important to the success of the census.
    I am extraordinarily proud of the work of this 
subcommittee. The Members and staff have shown tireless 
dedication to their oversight responsibilities and, I believe, 
have made positive contributions to the largest of our Nation's 
civic ceremonies.
    While the news regarding the success of the census has been 
good, the political rhetoric surrounding the census threatens 
to taint the entire effort. In recent weeks the rhetoric of the 
postsampling community has reached an unfortunate yet familiar 
tone. I guess when you can no longer argue the facts, there's 
nothing left except to take cheap shots, race-baiting and name-
calling.
    For months now relentless pressure has been placed on 
President Bush and Secretary Evans to make some sort of 
statement regarding the use of the controversial adjustment 
plan known as sampling. I have maintained that the 
administration is entitled to gather all the information they 
deem necessary to make an informed decision on this important 
issue. I still believe, and I agree with President Bush, that 
adjustment is not the answer. An actual head count is the best 
and most accurate way to conduct the census. Adjustment is a 
Pandora's box, filled with unintended consequences, legal 
uncertainty and inaccuracy.
    I would like for a moment to explore some of the unintended 
and unanticipated social costs of adjusting the census.
    Think about the people who took the time to fill out their 
census form and mail it in or those who responded to the 
enumerators who went door to door. These people did what former 
Director Prewitt stressed time and again was their civic duty. 
Under the sampling plan you can do your civic duty, live up to 
your civic and community obligation and still be counted as 
less than a whole person.
    I have always maintained, and this Congress has thoroughly 
demonstrated, we should do all that we can to count everyone. 
However, this effort should not come at the expense of those 
who dutifully answered the call of our Nation. And what about 
participation in this great civic ceremony in future censuses? 
It is a very slippery slope. After all, why stand up and be 
counted when you can sit down and be sampled?
    Of course, ultimately this issue will end up back in the 
courts. I firmly believe that sampling for redistricting is as 
illegal as sampling for apportionment and that the Supreme 
Court was clear in this regard. However, the Democrats continue 
to read that decision through rose-colored glasses.
    The legality of sampling is not one of degrees. A small 
adjustment is no more legal than a large adjustment. If the 
Census Bureau were to adjust the numbers, States should be 
cautious in their use, because their plans could be thrown out 
in court.
    Let us not forget, it is the Democrats' spin that tells us 
that the Supreme Court decision mandates sampling to be used 
for other purposes except apportionment, but a Congressional 
Research Service opinion, shortly after the High Court's 
decision, viewed the decision quite differently saying, ``A 
closer examination of other parts of the Court's opinion 
indicates that it did not interpret those other purposes as 
necessarily including, at least, intrastate redistricting.''
    Joining us today will be Acting Director Bill Barron. Mr. 
Barron was a former career employee of the Bureau of Labor 
Statistics for 30 years. He was Deputy Commissioner from 1983 
to 1998 before joining the Commerce Department as Deputy Under 
Secretary for the Economics and Statistics Administration in 
1998, and he has served as Deputy Director of the Census Bureau 
since 1999.
    I don't envy at all the weight that has been hoisted upon 
his shoulders by a politically motivated rule put into place to 
remove control over the census from a possible Republican 
administration. This rule is illegal and poor public policy. It 
has put blinders on Congress and has hindered our ability to 
fulfill our constitutional obligation to oversee the conduct of 
the decennial census.
    For weeks now the internal committee within the Bureau has 
been meeting to make a recommendation to the Acting Director on 
whether or not to adjust numbers. Despite the constitutional, 
legal and political ramifications of this decision, our 
requests to observe the deliberations of these meetings have 
been continually denied. This has not been the transparent 
census the American people were promised.
    Furthermore, this decision will not be independently 
reviewed. Adjusted numbers could be released, and months from 
now we could find problems. That is what happened with the 
attempted adjustment in 1990. An adequate independent review of 
these numbers was conducted to determine the validity. This 
independent review found errors.
    Contrary to what others would have you believe, the 
National Academy of Sciences will be analyzing and evaluating 
the adjustment for months. While the panel seems to not have a 
problem with the concept of sampling, they have not concluded 
that the 2000 census should be adjusted. I worry that adjusted 
numbers will be released without adequate independent review.
    At this point I urge caution and restraint by all parties, 
especially those who have to begin their redistricting process. 
The old adage, buyers beware, will never be truer when it comes 
to States using adjusted numbers for redistricting purposes.
    Mr. Barron, I welcome you before the subcommittee. I know 
that you must feel like you've jumped from the frying pan into 
the fire. The decision you are to make regarding adjusting the 
count should not rest with career civil servants. I personally 
don't think this is appropriate given all the considerations 
outside of your expertise. Congress was right in putting this 
decision at the Cabinet level to begin with. Some would have us 
believe that this decision is simply one about statistics. Load 
the numbers in a computer and hit enter, and that's your 
answer, adjust or don't adjust. These people couldn't be 
further from the truth. The adjustment decision has far-
reaching legal, political and social consequences and cannot be 
compared to the release of other government statistics such as 
the trade deficit or unemployment rate.
    This is not a decision to be made by a group of government 
civil servants, however well-intentioned, behind closed doors. 
Issues of this importance should be by those most accountable 
to the American people. This is why Congress originally and 
rightfully put this decision in the hands of the Commerce 
Secretary, a member of the President's Cabinet.
    Let me end by emphasizing how thrilled all of us should be 
with the inroads made with the undercount. Significant 
reductions occurred in the undercount rates virtually across 
the board for all minorities. The 2000 census is one we all can 
and should be proud of.
    Thank you. Glad to have you here.
    [The prepared statement of Hon. Dan Miller follows:]


    [GRAPHIC] [TIFF OMITTED] T5289.001
    
    [GRAPHIC] [TIFF OMITTED] T5289.002
    
    [GRAPHIC] [TIFF OMITTED] T5289.003
    
    [GRAPHIC] [TIFF OMITTED] T5289.004
    
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Chairman, if I may, let me first welcome our witness. 
May I use this? If I first can welcome our witness.
    Mr. Barron, I look forward to hearing your testimony today, 
and I have the distinct honor as serving as the ranking 
Democratic member of the Census Subcommittee. I also look 
forward, Mr. Chairman, to working with you to ensure the 
fairest and most accurate 2000 census possible.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T5289.005
    
    [GRAPHIC] [TIFF OMITTED] T5289.006
    
    [GRAPHIC] [TIFF OMITTED] T5289.007
    
    [GRAPHIC] [TIFF OMITTED] T5289.008
    
    [GRAPHIC] [TIFF OMITTED] T5289.009
    
    Mr. Clay. Let me at this point defer to Mrs. Maloney in 
order for an opening statement, if that's OK with you. Thank 
you.
    Mrs. Maloney. Thank you so much, Lacy Clay, and welcome to 
everyone.
    As a first point, Mr. Chairman, the Republicans are today 
claiming victory based upon Census Bureau preliminary results. 
What may be lost upon some is that this claim of victory is 
based upon the results of modern statistical methods. It's 
based upon the finding of the very instrument of accuracy that 
the Republican Majority has continually opposed, the ACE, the 
accuracy coverage evaluation program. So it seems that the ACE 
is good enough for Republican press releases, but not good 
enough for counting people.
    Mr. Barron--and I thought Mr. Thompson was going to join 
you. Is he coming today?
    Mr. Barron. He is here.
    Mrs. Maloney. He is coming. Well, happy Valentine's Day to 
Mr. Miller and everyone here, and I am--I have got to begin by 
saying that I am sure that this is a very proud day for each of 
you, the professionals at the Census Bureau, in your long and 
devoted careers, serving your government. Your operational plan 
for the census 2000 is already recognized as a great civic 
milestone in our country's history.
    I have said from this dais for 2 years that we should let 
the professionals, the career experts, do their job, and you 
have done so magnificently. You redesigned the form, overhauled 
the national address list, created a national advertising 
program. You created a professional campaign, put in the field 
520 local census offices and nearly 1 million part-time 
workers, designed a national partnership with more than 140,000 
private, public and civic groups, and you did it on time and 
under budget. Congratulations. Your public service is 
commendable, and, in my view, you are patriots who served 
during very, very hazardous duty. I believe you deserve all of 
our gratitude and great applause.
    While I am encouraged and cheered by the new enthusiasm 
that I'm hearing from my friends on the Republican side of the 
aisle that they now have for the census professionals at the 
Bureau, I would like to offer a cautionary note and remind you 
of a very familiar refrain that we heard over and over in this 
hearing room. It was called, ``the rushed census.''
    As a parent might advise a child on prom night, I want to 
give you some advice about the hugs and kisses you're receiving 
on this Valentine's Day from former critics. Sadly, it was not 
long ago they accused you of rushing the census. They used this 
subcommittee to investigate census professionals as 
individuals. While your enumerators were still at work, they 
broke a vow not to release preliminary data and held a press 
conference accusing you of criminal fraud. They sought to 
search all of your e-mails. They said, you are ``dangerous 
people.'' They held hostage two Federal budgets, blocked flood 
relief with antisampling language that the President had to 
remove with a Presidential veto, and shut down the government 
in order to pressure you to change your operational plan.
    From this panel they investigated former Director Dr. Ken 
Prewitt and questioned him about his political affiliations, 
about his contributions and about whom he associated with. If 
these valentine hugs today leave you open to the prospect of 
going on a date with them, I would really encourage you to be 
very cautious, and I mean that seriously.
    It may be the best census ever, but as I am sure you are 
about to tell us, we do not yet know that. Your numbers today 
are preliminary, and there is a much more critical story to be 
told in the details behind these numbers. They may change, they 
may improve, they may get worse, and now there are some in the 
administration who are rushing to prejudge these results. Once 
again preliminary data is being distorted, and once again we 
are on this side having the burden to call on the Chair to wait 
for all the facts before jumping the gun.
    We sincerely hope that it is the best census ever. The key 
to this question is not just how many were missed in the net 
calculation, how many were missed in total. Who was missed? 
Where do they reside? Were some groups missed at higher rates 
than others? What if a net of 3 million residents missed 
nationally, but that 1 million were in Florida, would not 
Florida insist on adjustments? The numbers released today tell 
us nothing about the inevitable geographic differences in 
census coverage.
    A successful effort to interfere with the modern scientific 
count to achieve a purely partisan advantage of one political 
party, as press accounts have suggested is under way, most 
recently in the Wall Street Journal, and I would like to put 
that article into the record, denies liberty and 
disenfranchises the unrepresented for 10 years. This is why we 
call this moment in our history the most important civil rights 
issue of the decade.
    I remind this committee of the recent election process in 
Florida. Those who felt denied access to the polls, or 
disenfranchised by having their ballot set aside, or stripped 
of their right to choose their political leadership, they still 
have recourse. Next year they will be able to go to the polls 
again in local, State and Federal elections and make their 
voices heard, and believe me, the whole world will be watching.
    But to those left out of the census, however, to those 
people that are disenfranchised in this census by a partisan 
intervention to ensure that they're not counted or recognized 
or represented, to them there is absolutely no recourse, not 
for 10 long years. Billions of dollars in Federal funding will 
be unfairly spent. Private investment will be redirected to 
those less deserving. Local planners and school boards will 
overlook again those uncounted unless we do everything we can 
to improve the census and ensure that it is as complete and 
accurate as possible.
    Let's address the so-called compromise that I keep reading 
about in the paper, and this compromise is the notion that more 
accurate adjusted data might be used to distribute Federal 
funds, but not to distribute Federal power and political power. 
Mr. Chairman, when it comes to political rights, there can be 
no compromise. Every American is entitled to his or her fair 
share of Federal dollars. This so-called compromise offers to 
give Americans that to which they are already entitled. If the 
numbers are accurate, they are accurate for every use.
    We are now on the verge across this Nation of redrawing 
every political jurisdiction in every State. Only those census 
numbers which give us the most complete accounting of everyone 
residing in our country should be used for this purpose. It is 
distressing to think that there are those who would seek to use 
this Federal Government, the very instrument of political 
empowerment and the last sentry for people of color, women and 
youth, to reverse those gains through manipulation of census 
numbers.
    We shall not have ended the poll tax, given suffrage to 
women, lowered the voting age to 18, ensured all qualified 
citizens the right to vote, arrested those who intimidated 
voters at the polls to now just turn away while millions are 
left uncounted, unrecognized and unempowered.
    We will ultimately learn if any political influence by this 
administration is used to interfere with the scientific process 
of a complete and accurate count. I am reminded, Mr. Chairman, 
of a very stirring moment that we shared together when we stood 
with former Director Prewitt in the Ronald Reagan Building and 
launched the advertising campaign for the census in November 
1999. Over 1,000 people joined us. There were dozens of 
television cameras and hundreds of reporters witnessed when 
former Director Ken Prewitt announced that with all the modern 
scientific improvements in the census, that the key technology 
for the census was very simply a pen, a pencil. The struggle 
for full voting rights and political empowerment cannot and 
will not now be undone by the swipe of some political 
appointee's pen.
    Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]


[GRAPHIC] [TIFF OMITTED] T5289.010

[GRAPHIC] [TIFF OMITTED] T5289.011

[GRAPHIC] [TIFF OMITTED] T5289.012

[GRAPHIC] [TIFF OMITTED] T5289.013

[GRAPHIC] [TIFF OMITTED] T5289.014

    Mr. Miller. Mr. Cannon for an opening statement.
    Mr. Cannon. Thank you, Mr. Chairman.
    Mr. Miller. We welcome you to join us on our subcommittee. 
We're glad to have you here today.
    Mr. Cannon. I do have a special interest, of course. The 
people of Utah feel like they were shorted a seat in this 
census count, and we need to take a look at that. I would ask 
unanimous consent to submit an opening statement for the record 
so we can move on.
    Mr. Miller. Without objection.
    Mr. Cannon. Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Chris Cannon follows:]


    [GRAPHIC] [TIFF OMITTED] T5289.015
    
    [GRAPHIC] [TIFF OMITTED] T5289.016
    
    Mr. Miller. Mr. Clay, you want to add anything else?
    Mr. Clay. Sure. If it's OK, I'd like to submit an opening 
statement, too.
    Mr. Miller. Without objection, the opening statements will 
be included.
    Before we get started, Mr. Barron, if you would rise and 
raise your right hand--and Mr. Thompson, do you want to go 
ahead and get sworn in in case you're called upon?
    [Witnesses sworn.]
    Mr. Miller. Thank you.
    Let the record reflect that Mr. Barron and Mr. Thompson 
answered in the affirmative, and on behalf of the subcommittee, 
we welcome you today, and it is indeed a pleasure to have you. 
I think it's going to be a good news hearing, and I look 
forward to hearing your testimony.
    Mr. Barron.

STATEMENT OF WILLIAM G. BARRON, ACTING DIRECTOR, U.S. BUREAU OF 
 THE CENSUS, ACCOMPANIED BY JOHN THOMPSON, ASSOCIATE DIRECTOR, 
                        DECENNIAL CENSUS

    Mr. Barron. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, it's indeed a 
pleasure to testify before you today on the status of census 
2000 operations. I have testified previously before you, 
Chairman Miller, when you were on the Labor-HHS Appropriations 
Subcommittee and I was the Deputy Commissioner at the Bureau of 
Labor Statistics, but this is the first time that I've 
presented formal testimony to you since coming to the Census 
Bureau nearly 2 years ago. It's indeed a pleasure.
    As you noted, I'm accompanied by John Thompson, the 
Associate Director for the decennial census.
    I'd like to begin my testimony by discussing the success of 
census 2000, as you requested in your letter of invitation. 
Over the last 2 years, former Director Prewitt on many 
occasions very eloquently has reported to you on various 
operational successes of the census. These successes included 
the fact that we have completed every planned operation on 
schedule. We achieved higher than expected mail response rates, 
and we met our hiring goals, implemented a highly efficient and 
accurate data processing system and so on.
    These operational successes culminated in the release on 
December 28, 2000, 3 days ahead of schedule, ahead of the legal 
deadline, of State population totals that are to be used for 
the purpose of apportioning seats in the House of 
Representatives. At the same time, the Census Bureau announced 
the resident population of the 50 States and the District of 
Columbia.
    The release of the apportionment counts fulfilled the 
requirement under Article I, Section 2 of the Constitution, but 
the apportionment numbers and all the successes that we 
achieved over the last 2 years were always subject to this 
caveat. While we knew we had conducted a good census 
operationally, we would not know whether we succeeded in 
improving the counts until the count of the population results 
from the Accuracy and Coverage Evaluation survey were compiled. 
All of the ACE operations have now been completed, and we've 
produced the first results from dual system estimation; that 
is, comparing the ACE results to the census.
    Today we are removing the caveat and announcing that 
preliminary estimates from the ACE indicate that the census was 
not only an operational success, but was also successful in 
improving coverage of the population and in reducing 
undercounts for some population groups.
    I would call your attention to the two tables attached to 
my testimony. Table 1 is preliminary estimated coverage of 
census 2000 based on the Accuracy and Coverage Evaluation 
survey. Table 2 is estimated coverage of the 1990 census based 
on the Postenumeration Survey [PES]. While we are confident of 
having made improvements in coverage, I again want to emphasize 
that these are preliminary estimates of the extent of the 
improvement. We still have quite a bit of review and analysis, 
and additional refinements will undoubtedly lead to more 
precise calculations.
    I also want to add another note of caution. The race and 
origin groups for 1990 are not directly comparable to the 
preliminary estimation groups for census 2000 because of the 
different racial and origin reporting requirements of the two 
censuses. However, in the interest of openness and 
transparency, we believe it's warranted to share these data 
because they do tell an important story about the success of 
census 2000 in improving accuracy.
    We can make several observations looking at these tables. 
Overall coverage has been improved from 1990 to 2000. 
Significant reduction occurred in the undercount rates for non-
Hispanic Blacks and Hispanics. For American Indians on 
reservations, the undercount in census 2000 will be well below 
the 12.2 percent figure that was reported for 1990. Also, while 
there remains a difference in coverage rates for owners and 
renters, the undercount of renters appears to have been 
significantly reduced from 1990 to 2000. And coverage for 
children under 18 years old has improved notably. Finally, for 
American Indians off reservations, Asians and Native Hawaiians 
and other Pacific Islanders, there are no comparable data for 
1990.
    While the preliminary estimates indicate there are still 
undercounts for some groups, I believe we have taken 
significant steps toward improving census accuracy. The full 
extent of these improvements will be documented with greater 
specificity in the weeks ahead, but it's a characteristic of 
the Census Bureau that even when we have good news to tell, we 
will be measured and deliberate until we complete our 
evaluations.
    I want to emphasize that the committee of Census Bureau 
professionals charged with recommending whether or not to use 
the results of the Accuracy and Coverage Evaluation survey to 
adjust the census is still receiving and reviewing detailed 
tabulations and reports designed to assess the quality of both 
the census and the ACE. This committee, the Executive Steering 
Committee for Accuracy and Coverage Evaluation Policy, is 
analyzing census data and the ACE results to determine whether 
the use of the ACE to adjust the census figures would improve 
results at the level of redistricting. This committee is 
scheduled to make its recommendations by February 28th, with a 
final decision expected by March 5th.
    If I may, Mr. Chairman, I'd like to reflect briefly on some 
of those elements of the good census that contributed to 
significant improvements in coverage. First, the census used a 
multifaceted marketing campaign to aggressively encourage 
householders to complete and mail back their census forms and 
to include themselves in the census. This included 
partnerships, paid advertising, working with schools, improved 
questionnaire design and providing multiple ways to respond. 
These cumulative efforts were successful in marketing the 
census. Approximately two-thirds of households answered the 
census by mail, exceeding our expectations on mail response.
    Second, because of our resourceful recruiting plan, 
research on pay rates and recruiting, and the attractive wages 
that we could afford to offer because of the full census 
funding that the Congress provided, we were able to hire and 
train enough highly skilled temporary staff through the course 
of the census to complete all operations on time.
    Third, because of the timely completion of nonresponse 
followup, we had the time and the resources to conduct eight 
other operations designed to improve coverage, plus conduct 
additional reenumeration in selected areas. We called these 
operations ``quality counts.'' If we had stopped at the end of 
nonresponse followup, we would have provided an incomplete 
estimate of the population. The ``quality counts'' operation 
helped us improve coverage and the census estimates.
    Fourth, for census 2000, the Census Bureau has used digital 
imaging and optical character recognition technology for the 
first time to recognize handwritten answers in addition to 
blackened circles. This was a vast improvement over previous 
computer systems and allowed us to process the data faster and 
introduced quality assurance steps to be sure we had captured 
the data accurately. Our improved data capture systems, with 
the ability to capture names, also meant that we could offer 
multiple options for responding to the census with confidence 
that we could find and remove duplicate questionnaires.
    Mr. Chairman, census staff at headquarters, in the regional 
and field offices and in the processing centers, as well as our 
partnering contractors, can rightly take pride in these 
achievements, but many others share the credit for a successful 
census 2000, and they deserve our thanks: the American public, 
who helped to exceed expectations on mail response and opened 
their doors to census enumerators; the temporary census 
workers, who were dedicated, enthusiastic and resourceful, and 
who braved tough situations to get the job done; our many 
partner organizations throughout the country, who worked so 
hard giving of their time and energy to participate in this 
great national event; and the Congress, for oversight and your 
support in providing sufficient resources to offer attractive 
pay rates for temporary census workers and to conduct the other 
operations so important to our success.
    Mr. Chairman, in closing I want to bring to your attention 
a letter of January 17, 2001, from Mr. Chris Mihm of the 
General Accounting Office to then Secretary of Commerce Norman 
Mineta announcing that census 2000 has been removed from the 
GAO's list of high-risk Federal Government programs. That 
census 2000 was ever on this list is a reminder to all of us of 
the great challenges the Census Bureau faced and overcame in 
conducting a successful census. In the letter Mr. Mihm 
underscores the need and importance of planning for the 2010 
census. Doing so will require completing the 2000 evaluations, 
and that will shed further light on what worked well or what 
didn't work well in this census, eliminating the long form from 
the decennial census by collecting data in the American 
Community Survey, improving the accuracy of our geographic data 
base and our master address file, and reengineering the census 
process through early planning.
    Mr. Chairman, I encourage you and members of the 
subcommittee to support 2010 planning, which needs to start 
right away.
    This concludes my testimony, Mr. Chairman. I'll now be 
happy to try and answer any questions that you and your 
colleagues may have.
    Mr. Miller. Thank you, Mr. Barron.
    [The prepared statement of Mr. Barron follows:]


    [GRAPHIC] [TIFF OMITTED] T5289.017
    
    [GRAPHIC] [TIFF OMITTED] T5289.018
    
    [GRAPHIC] [TIFF OMITTED] T5289.019
    
    [GRAPHIC] [TIFF OMITTED] T5289.020
    
    Mr. Miller. Before we start, I apologize for not having 
enough seats in the room for everyone, but I see that there are 
three seats here in the front row that you're welcome to come 
up to, and there's at least one seat I see in the second row 
there. There may be some other seats, so if you want to--it's 
not like classroom or something where you get stuck on the 
front row or something. And if there are any other empty seats, 
let someone standing know. Are there any other empty seats 
anyone can identify? Thank you.
    Mr. Barron, this is a good news day, and it's been a tough 
decade, and I agree with you that we need to start planning for 
the 2010 census. And one of the many objectives we'll have in 
this subcommittee over the next 2 years is preparing for the 
American Community Survey and how it addresses the problem of 
the long form. We look forward to having some hearings on that. 
Counting overseas Americans is certainly something we're going 
to look at for the 2010 census, as well. So I look forward to 
future hearings on these issues.
    By all accounts so far, the actual head count is reported 
to be a tremendous success. Let me give you several quotes. An 
article from last Thursday's San Antonio Express news says, 
``Former census Director Kenneth Prewitt said before stepping 
down from his job last month that Census 2000 is the most 
accurate census in the country's history.''
    On December 28, former Director Prewitt said, ``Never have 
we been so diverse, never have we been so many and never have 
we been so carefully measured.''
    On December 28th, former Commerce Secretary Mineta said, 
``The participation by the people of this country in Census 
2000 not only reversed a three-decade decline in response 
rates, but also played a key role in helping produce a quality 
census.''
    On September 27, 2000, former Director Prewitt said, ``This 
is truly a marvelous achievement for America and a rousing 
compliment to the American people for their unprecedented 
participation in making the census a success.''
    In your estimation, was the 2000 census a quality census, 
as Secretary Mineta suggested?
    Mr. Barron. Well, Mr. Chairman, I think with the evidence 
we have today, we are heading closer and closer to being able 
to say that in all respects this was a very good census. We had 
operational evidence prior to now, but with the preliminary 
results today, we're beginning to see that we addressed one of 
the most serious issues about the census over the past decade, 
and that's the differential undercount. Now, clearly we've not 
eliminated it, but if one thought that the differential was a 
serious matter, and I think it was, if we indeed have reduced 
it, as these numbers are seeming to indicate, then that's a 
serious success. So that would be my position, sir.
    Mr. Miller. What new efforts did the Census Bureau try in 
2000 that may have made this a better census than prior ones? 
Specifically, what steps did the Bureau take to make inroads 
with the traditionally undercounted populations?
    Mr. Barron. Well, I think the effort began very early on, 
Mr. Chairman, with an effort to improve the address list, which 
I think reduces the undercount generally. I think the 
evaluations from 1990 indicated that a sizable proportion of 
the undercount stems from problems with the address list, and 
very early on the Bureau, working with the Postal Service, 
sought to address that issue.
    Later on, especially after the funding was provided, the 
Bureau was able to engage in some rather innovative efforts, 
such as the paid advertising campaign--the first paid 
advertising campaign, in the statistical system that I'm aware 
of. We had partnership activities throughout the country that I 
think also were very creative. Those, I think, were the major 
new, new items, Mr. Chairman, that helped make this census a 
success.
    Mr. Miller. Compare the 1990 census and 2000 census with 
respect to hiring a temporary work force. You mentioned that 
topic briefly in your opening statement, but why was this 
aspect of the 2000 census considered more successful than in 
1990? In 1990, as in 2000, we had a very full employment 
economy, and there was great concerns that we were going to 
have an adequate work force, a quality work force, a good work 
force, and that was one of the successes. And what would you 
like to comment on that?
    Mr. Barron. Thank you for helping me, Mr. Chairman, because 
that's another area of creative difference between this census 
and 1990. This time we had a pay policy that was actually based 
on salary surveys produced by the Bureau of Labor Statistics. I 
had nothing to do with that, but it was a policy that had been 
arrived at before I left the BLS, and that enabled the Census 
Bureau to go out and offer attractive wages, attract and retain 
people, and avoid, as I understand, one of the more difficult 
problems encountered in 1990 where, with turnover, the Census 
Bureau simply didn't have the staff to get the job done.
    So, you're right, the pay policy had to also be funded, so 
I thank the Congress for providing the funds. This was another 
major change between 1990 and 2000 that contributed very 
significantly to the Census Bureau's success.
    Mr. Miller. Something else that was successful in the 2000 
census was also the use of the computers, reading the data on 
forms. It was a huge success.
    Mr. Barron. Right. That's contracted out this time.
    Mr. Miller. There were concerns early on about it because 
it was such a huge volume, it had never been attempted before.
    Mr. Barron. Huge volume, and I think whenever you do 
something once every 10 years, and when the Census Bureau 
didn't have the time, Mr. Chairman, and there was no funding to 
begin early in the decade--and that's why I made the point 
about the ACS and 2010 planning--I think that's what made the 
concerns so great about computer systems. Those things 
typically take time to test, and I think by the time the 
funding did arrive, we were up against some pretty tight 
deadlines, but through a remarkable effort through Census 
Bureau staff and contractors, this worked extremely well.
    Mr. Miller. You have something else?
    Mr. Barron. Well, I just wanted to observe, that I'm very 
concerned about the people that work on this in 2010. I'd like 
them to work in an environment that's perhaps a little less 
tense than the environment that those who have worked on the 
2000 census will work on, and I simply can't help but think 
that, you know, in April 2000, the employment-to-population 
ratio in the United States reached its all-time historical peak 
of almost 65 percent, 64.8, and what that meant was that this 
census was conducted during a time when I think people in this 
country were feeling pretty good about their job prospects. So 
I think we did benefit from a good economy at the time the 
census was launched, and I think we need to be humble enough to 
acknowledge that, and that's just one more reason why 2010 
planning needs to get started.
    Mr. Miller. Hopefully in 2010 there will be better 
facilities out of Suitland.
    Mr. Barron. I hope so, too.
    Mr. Miller. I hope those plans are moving ahead.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    In 1940, the Census Bureau first discovered that African 
Americans were missed by the census at rates far higher than 
the population as a whole. They discovered this when more black 
men registered for the draft in World War II than were counted 
by the census. Since 1940, every decennial census has shown the 
same result.
    Mr. Barron, you've released figures today that indicate a 
net national undercount of about 1 to 1.4 percent. That would 
translate to about 3 to 4 million people net missed, slightly 
better than the 1990's; 4.4 net missed. Can you elaborate a 
little bit on that?
    Mr. Barron. Yes, Mr. Clay, I can. I think when all is said 
and done, we're going to see that the undercount for 2000 is 
reduced. Any undercount is unsatisfactory to us at the Census 
Bureau. Anybody missed is unsatisfactory, but I think the fact 
that we made progress is something that we need to note.
    I think we're going to see numerical improvement in the 
undercount for Blacks and African Americans. I think we're 
going to see improvement in the undercount for Hispanics, and I 
think we'll see improvement in the undercount for renters and 
children.
    Now, those are important improvements, Mr. Clay, but they 
don't mean that the institution for a second will say, ``Oh, 
gee, our work is done, we don't care about this anymore. That's 
not going to happen. The Census Bureau is going to stay 
committed to working on the undercount problem as long as 
there's an undercount in existence.
    Mr. Clay. Mr. Barron, on a more personal basis, I represent 
St. Louis, MO. In 1990, you had an undercount of 8,490 
approximately. What is your estimation of the undercount of St. 
Louis, MO, in the 2000 census?
    Mr. Barron. Mr. Clay, we're not there yet. The numbers that 
I presented today are just net national totals, and indeed the 
point you're making is a very excellent one. Part of what we 
need to do is to continue our analysis to examine this below 
the national level, and we realize there could be differences 
that occur there that are very significant.
    Mr. Clay. Do you have any more detailed information you can 
share with us about geographic differences in the undercount 
rates? For example, do large metropolitan areas have higher 
undercount rates than the suburbs or rural areas of the Nation?
    Mr. Barron. Not today, but very shortly--on the computer 
sites we've created to assist all the oversight folks, as well 
as the National Academy of Sciences, look at our work--there 
will be more detailed geographic information provided. We don't 
have that today, though, sir.
    Mr. Clay. Can you give us any information on the overcounts 
of any population groups?
    Mr. Barron. Well, from the tables that are attached to my 
testimony, we can see that relative to 1990, while there is a 
net overcount of older folks, it seems to be a little bit 
better, but again, that's going to be another number that we're 
going to need to examine more carefully by region in the days 
ahead as we continue our analysis.
    Mr. Clay. Final question, Mr. Barron. A lot of energy has 
been spent talking about accuracy at the block level, but that 
really misses the point. When you use corrected census counts 
to create congressional districts of 650,000 or other large 
aggregations of census tracts and blocks, the corrected counts 
are generally more accurate than the census counts. Can you 
explain to us how the errors in census data get larger as you 
put blocks together, while the kind of error in the ACE gets 
smaller as you put blocks together?
    Mr. Barron. As you accumulate data from a sample, and you 
have more sample observations, you're going to reduce what 
statisticians call ``variance,'' and so that's going to improve 
estimates from a system that's generated by something like the 
ACE. In other cases, such as the census, if you're having a 
systematic bias in what you're doing in your observations, 
that's not going to be improved when you start adding geography 
together. So that, I think, would be the heart of the 
difference. The fact that data get better as you add it up from 
a block to a higher level of geography, I mean, that's true of, 
I think, every statistic that the Federal Government produces, 
Mr. Clay, so that's not a problem that's peculiar to the ACE. 
That's the nature of statistics.
    Mr. Clay. But you do have confidence in the ACE?
    Mr. Barron. We have confidence in it in concept. We have to 
look at the particular set of data that we have for this year, 
for this census and this ACE, and see how that plays out in 
terms of being able to improve accuracy for redistricting, and 
that's the challenge that's ahead of us over the next 2 weeks 
on the committee that's mentioned in my testimony and the 
chairman's.
    Mr. Clay. Thank you, Mr. Barron.
    Thank you, Mr. Chairman.
    Mr. Miller. Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    Mr. Barron, thank you for being with us today. As I 
mentioned in my opening statement, my real concern--I have 
several concerns, but one of the core concerns is the 
difference in the counting of the two groups of foreign 
citizens. You have, for instance, missionaries and others who 
were not counted, but Federal employees and dependents who are 
temporarily serving abroad who were. The failure to treat these 
two groups of American citizens equally when the Bureau 
tabulated the apportionment population for the 50 States 
resulted in Utah being deprived of an additional Member of 
Congress, to which I think the State is entitled. Are you 
familiar with the issue of Utah and this count and the 
missionary issue?
    Mr. Barron. I'm familiar with how the Bureau arrived at the 
decisions for coverage in 1990 and 2000, Mr. Cannon, and I 
understand the circumstances you've described to me.
    Mr. Cannon. Thank you.
    Would you explain the legal authority upon which the Bureau 
relied in setting two apportionment groups? Particularly upon 
what basis did you decide that the second apportionment group, 
consisting of those Americans who were living outside of the 
United States temporarily, would only include Federal 
employees, military and their dependents?
    Mr. Barron. Mr. Cannon, I'm not sure that I can give you a 
legal explanation for the decision. Let me tell you what the 
substantive basis for it was. Basically, the Census Bureau 
decided to continue for the 2000 census a practice that was 
adopted for the 1990 census. Just prior to the conduct of the 
1990 census there was a lot of interest emanating from the 
Congress that was presented to the Census Bureau indicating 
that it would be a good idea to add military, and given how so 
many Federal employees also work in the military, that was then 
expanded to include Federal employees as well.
    That was announced and done for 1990. After the 1990 
census, there did not seem to be any particular controversy or 
concern about that decision, and so for 2000, as I understand 
it, it was announced that practice would be continued, and 
that's how we got to where we are. I'm not aware of a legal 
process that arrived at that decision, sir. There may be, and I 
can check on that for you and get back to you, but I'm not 
familiar with it.
    Mr. Cannon. We will come back to this on the particular 
legal issue, but were not people like missionaries, Mormon 
missionaries, counted in prior censuses?
    Mr. Barron. My understanding, sir, is that if you go back 
to the 1920's or 1930's, I think, that there were questions 
asked of households about members of that household who might 
be temporarily in residence overseas. I'm not aware that there 
was a specific question per se dealing with missionaries, but I 
think they would have been included by the type of question 
that I just cited where if you went to someone's home and asked 
perhaps the parents about someone who was temporarily overseas, 
they would have been included on the census form, and perhaps 
it would have been noted that they were a missionary. But I 
don't think there was ever a specific question aimed at 
missionaries going back over time.
    Mr. Cannon. Of course, this is not specific, but if you had 
information about people overseas, you would have had to have 
made a decision either to ask a question or have the 
information whether or not to count those people within the 
State. Have those issues been dealt with over time?
    Mr. Barron. Well, they haven't been dealt with extensively, 
Mr. Cannon. As a result of language attached to our 
appropriations bill, the Bureau is committed to reexamining 
this issue. This came up prior to the situation with respect to 
Utah, and we think it clearly is something that warrants 
review.
    There are some real challenges. As I think you've heard, 
there are challenges doing the census here. Move this to an 
overseas situation, and I'm certain there are some very serious 
challenges in doing that as well. So we're going to be looking 
at this and reporting back to the Congress because we 
understand the unhappiness, and we'd like to find a way to deal 
with this if we possibly can. I don't know that we can, but 
we're going to try.
    Mr. Cannon. Will we have another round, Mr. Chairman?
    Mr. Miller. Yes.
    Mr. Cannon. Just finishing up then very briefly, you 
mentioned the statutory language requiring the Bureau's report 
to Congress on counting overseas Americans. Obviously this is a 
matter of urgent concern because we have to choose Congressmen, 
and there's a lawsuit ongoing. Is there any way that report can 
be speeded up, do you think?
    Mr. Barron. I'll look into it, Mr. Cannon. I seriously 
doubt that it can be done in time to be helpful in the legal 
process.
    Mr. Cannon. Thank you.
    I yield back, Mr. Chairman.
    Mr. Miller. In June 1999, we had a hearing on this issue of 
counting of overseas Americans, and I know we'll have another 
one this year, and this is one of the issues that Mrs. Maloney 
and I totally agree on. The Bureau felt at that time that it 
was too late to incorporate all of the overseas Americans, but 
language was put in the appropriations bill in the Commerce-
Justice Committee, which I serve on, to have them come up with 
a plan. And so, you know, hopefully we'll have a plan later 
this year, a proposal, and as Mrs. Maloney said, we should at 
least go through and do a test of that plan sometime in the 
next few years so we are prepared for the year 2010.
    Mrs. Maloney.
    Mrs. Maloney. And just to add on that particular point on 
which we do agree, I filed legislation yesterday that would 
compel the Census Bureau to come forward with a plan and to 
conduct a trial run so that we are ready for the next census. 
Everyone talks about it, and then between the censuses nothing 
happens. So we want to make sure we have a trial run, and we 
have been supportive of each other's legislative efforts in 
that area.
    I would like to begin by noting the census document that is 
on display, which quotes former Director Kenneth Prewitt, and I 
would like to respectfully request that Dr. Prewitt be called 
back to speak for himself so that his words are not 
misinterpreted. It is a very important position that he holds.
    I would like to place into the record, when there was 
conflicting statements about his intentions, I called him on 
February 8th, and I'd like to read what he said to me: For the 
record, I have said that we believe that the 2000 census was an 
operational success, but at no time have I stated or 
characterized the accuracy of the 2000 census.
    He further stated, only the accuracy coverage evaluation 
will tell us exactly how accurate the 2000 census was. In fact, 
I have counseled all interested parties not to characterize the 
accuracy of the census 2000 numbers until the Census Bureau has 
reported on the results of the ACE program, end quote.
    And I'd like to place this into the record and request that 
he be called in to speak for himself. Would that be appropriate 
since you are using his words on a flier up there?
    Mr. Miller. I'll see if we can have time for another 
hearing on this issue, but go ahead.
    Mrs. Maloney. Mr. Barron, there have been press reports 
that the new administration has assured House Republican 
leaders that, ``sampling is dead,'' and I'd like permission to 
place into the record the various press reports that have 
stated that, Mr. Chairman.
    And I'd like to ask Mr. Barron, who do you think is best 
qualified to make the decision on the accuracy of the corrected 
versus uncorrected census numbers, the scientists and 
professionals at the Census Bureau, the nonpartisan expert 
professionals at the Census Bureau, or politicians? Who do you 
think is best equipped to make that decision?
    Mr. Barron. That's a tough question for a 33-year veteran 
of the statistical system but in another sense it's not. On 
statistical issues I think the Census Bureau has the expertise 
to decide matters of accuracy. On legal and other issues, the 
Census Bureau doesn't, and that would be my answer, Mrs. 
Maloney.
    Mrs. Maloney. Has there been any pressure on you to 
interfere with your professional work to make a decision one 
way or the other?
    Mr. Barron. No, there hasn't.
    Mrs. Maloney. There has been no pressure at all?
    Mr. Barron. Absolutely not.
    Mrs. Maloney. On the professionals, and you think that 
speaks for the whole Department, you think the professionals 
are being left alone to do professional work without political 
interference?
    Mr. Barron. Yes, ma'am. In fact, the Secretary has 
encouraged me to go do what I need to do. I think the 
statements made by Director Prewitt had been made before he 
left, and combined with the fact that we now have some 
information showing statistically we've done a good job--not a 
final word, but some preliminary sense--I think that's 
impressed the Secretary. So he's encouraged me to do what I 
need to do.
    Mrs. Maloney. Mr. Barron, that's encouraging. That's 
encouraging.
    Mr. Barron, just based on the numbers that you released 
today, it appears that the undercount rate for African 
Americans is twice that of whites, and for Hispanics it is 
three times that rate, and I personally find that quite 
troubling. Do you have any comment? What does that say about 
the ability of traditional census-taking methods to eliminate 
the differential undercount which your numbers show there is?
    Mr. Barron. I share your concern that it's troubling, and I 
think we need to continue to look at and investigate ways to 
solve that problem. It may be that the only way that can ever 
finally resolve this is using some kind of survey adjustment, 
but we don't know that yet. By the same token, Mrs. Maloney, if 
having an undercount for African Americans two or three times 
that for Whites is a serious problem, I think we need to note 
that, and note the fact that it's less than seven times, which 
is where we were in 1990. So I think we need to note the 
improvement without slacking off on our commitment to solve the 
problem, and I think that's where we are.
    Mrs. Maloney. And could you go through with us what the 
next steps are in solving the problem?
    Mr. Barron. Well, there's two things. We're going to 
continue the process for 2000 of examining whether the use of 
the accuracy and coverage evaluation survey improves data. The 
first tasks are the estimates for congressional districts. At 
some later point we would look at other levels of geography and 
hopefully address the issue of whether these data would be used 
for survey controls.
    Longer term, my reference to beginning planning for 2010, 
the adoption of the American Community Survey, and using new 
technology to improve the address list--I think all of those 
things need to be looked at longer term to see if we can make 
further inroads into a problem that we agree with you needs to 
be addressed.
    Mrs. Maloney. What factors will weigh most heavily on the 
decision of whether or not to adjust for the undercount?
    Mr. Barron. I think in its most general sense, Mrs. 
Maloney, the committee is going to be looking at whether at the 
level of geography known as a congressional district, the data 
we've assembled enable us to bring any value added to the 
estimates we get from an unadjusted census.
    Now, we have been reviewing and are continuing to review 
loads of information. I note one of my colleagues described it 
as hog heaven in terms of the amount of data we have. He's got 
a different definition of heaven than I do, but I'm in there 
with him and other colleagues examining data on the quality of 
the census. We are looking at the quality of the data on the 
accuracy and coverage evaluation survey. There are techniques 
and methods that statisticians, very noted statisticians, have 
developed to evaluate both and how they integrate and relate to 
one another.
    So that's what we're doing, and it's painstaking work 
that's now happening virtually every day, and we have 2 weeks 
to finish.
    Mrs. Maloney. But in your preliminary----
    Mr. Miller. We'll have another round.
    Mrs. Maloney. This is a followup just real briefly, and 
then I know my time is up.
    In your preliminary numbers, which is a range, it's roughly 
3 million net undercount?
    Mr. Barron. Yes, at the national level.
    Mrs. Maloney. Approximately. And for this particular 
census, the ACE is really the only instrument available to 
correct this problem; isn't that correct?
    Mr. Barron. That's correct.
    Mrs. Maloney. OK. Thank you.
    Mr. Miller. Mr. Souder, thank you for returning to the 
committee, and you're recognized.
    Mr. Souder. Thank you.
    We've been hearing various versions of these arguments for 
at least 3 years when Speaker Hastert chaired--when the census 
was under Brouder, and then with Chairman Miller coming and 
taking this, and I don't think the basic positions are likely 
to change.
    I wanted to first congratulate the Census Bureau on their 
hard work and becoming more accurate in reaching many of the 
people we haven't been able to reach and to thank all the 
public organizations who helped with that. I had plenty of 
frustrations in my area. The Chicago office came down, 
attempted to address some of those, because I didn't feel they 
were hiring the minorities they needed to hire to reach the 
hard-to-reach population, and we tried to address that, and we 
had meetings with the African American Ministerial Alliance and 
Hispanic leaders in the community to try to address that 
question.
    Indiana still loses a seat, but we attempted to try to 
address the question, and I'm sure we still have an undercount, 
and I'm very concerned about that.
    But as we've seen over and over on sampling, and anybody 
with a business background understands the kind of basic 
principles as statistical deviations that in the aggregate may 
be accurate, but what we're talking here now about is how to 
disaggregate the data to do congressional districts, State 
legislative districts, city council districts, potentially even 
township trustee in Indiana districts based on the population.
    And the fundamental question is in the hard-to-count 
population, people who, for example, may be illegal immigrants 
but still need to be counted, people who may be homeless, 
people who may be moving from the law, there are--in addition 
to people who may just have moved and got lost in the system, 
but there are a lot of the people who don't want to be counted, 
and they are very hard to count. We see in some school 
districts in my area or some schools where they will have a 
transient population in that school of 75 percent of the kids 
will move across school jurisdictions in a given year.
    Now, my question is, in the adjustment, would anything 
guarantee that if we got the--a more accurate total count that 
those people would actually be in the location where they would 
be put? In other words, if so and so was missed because they 
were like in Fort Wayne, we have 125--at one point we had 125 
houses they claimed were crack houses, but that really means 
any given night four to six would be in a count, so if you 
estimate that any abandoned house that was used as a crack 
house has four to six people in it, you're going to be off by 
120 some houses. So where do you put the additional people, and 
is there any guarantee in the adjusted count that the people 
you would add back in actually are a name and a place that 
would have any accuracy at the township trustee level, or any 
even reasonable accuracy at a city council level, and even to 
some degree a congressional level, because certainly that--in 
the last time we found that people that supposedly had been 
undercounted in New York were actually in Milwaukee and 
Indianapolis when they actually studied postcensus.
    Mr. Barron. Mr. Souder, I don't believe that we can speak 
to accuracy at these very detailed levels of geography that you 
mentioned. Indeed, the issue that's before the committee is 
whether utilizing dual system estimation can improve data for 
congressional districts, which I think are like 650,000 people. 
And, by the way, I think at that level, in concept, they could, 
but at these very detailed levels I'm not knowledgeable, and I 
don't believe----
    Mr. Souder. And, in fact, since the block deviation--census 
block deviation is greater in the estimating than it is in an 
actual accurate hard count, could it not be just as likely that 
the deviation would be greater or it would be more off under 
adjustments than it would be in unadjusted?
    Mr. Barron. I think as you begin to add the data, 
respectfully, I don't think I'd make that conclusion, but for 
2000 I have not seen the results yet.
    Mr. Souder. In other words, as you move it up to a sample 
size--in other words, you're arguing that potentially, 
depending--and assuming no gerrymandering in a congressional 
district, which, of course, most districts are gerrymandered, 
and therefore it isn't even a statistical block that you can do 
a deviation off of, but what you're saying is that 650,000, it 
might be reliable, and what I'm saying is this census data is 
far more than just that. It breaks down into every kind of 
unit.
    I think personally I agree with Chairman Miller that 
constitutionally we have to have a hard count in the Federal 
level. What you're really not talking about are congressional 
districts. I'm pretty sure we'll win the court decision on 
that. The Constitution says hard count, but at the State and 
local level your count matters, too, and by putting in adjusted 
figures that could indeed be off even more than the unadjusted 
figures, you're potentially skewing the whole political system 
because some people believe it may give them an advantage.
    What you're saying is that the bigger the data, possibly 
the adjusted would have an impact, but that as a statistician, 
the smaller that is, the less impact that will be.
    Mr. Barron. Yes. I think at low levels of geography, the 
census data are pretty noisy to begin with, and I think we 
would like to demonstrate there's a block level improvement.
    Mr. Souder. Given the fact that we're moving ahead, what 
reason is there not to release the unadjusted data now?
    Mr. Barron. Well, we're not going to know exactly the 
degree of confidence that we have in the block level data 
unadjusted until we finish this process. Now, it is true that's 
virtually complete, but it's not totally complete until we 
finish the ACE process. So that's the best answer I can give 
you on that, Mr. Souder.
    Mr. Souder. Thank you.
    Mr. Miller. We'll go on to a second round.
    I would like to refer to a quote by Mr. Prewitt, Director 
Prewitt, that was made at a public forum with the Brookings 
Institute, and it's published actually on the Web page of the 
Brookings Institute, and I think you have a copy in front of 
you. Let me read the quote from Director Prewitt: ``Just one 
final word, envision a two-by-two table on which you have a 
sample survey, the accuracy and coverage evaluation, good and 
bad. So you've got four possibilities. You've got the 
possibility of a good census and a good ACE. Under those 
circumstances would we adjust? Probably not, because why pay 
the social cost and the confusion and concerns and so forth? If 
you start with a good census, you don't need to adjust, so you 
wouldn't.''
    I'm looking at another exhibit, the chart that Mr. Prewitt 
said to visualize. You see that there's only one instance out 
of four where adjustment might be recommended, and that's if 
you have a bad census. But you have testified that we have a 
good census, and former Director Prewitt and Secretary Mineta 
have indicated that it was not only a good census, but a 
quality census, a marvelous achievement for America, the most 
accurate census in the country's history.
    Mr. Barron, why does a good census make adjustment harder 
to justify?
    Mr. Barron. What we're looking at in our committee, Mr. 
Chairman, is to see whether or not we can make a good census 
even better, and I don't know how that fits into Dr. Prewitt's 
description here, but I'm sure he knew that could come to pass 
as well. So I don't think there'd be any difference between Dr. 
Prewitt and me on that matter.
    We think we at least need to examine whether, given that we 
have a very excellent Accuracy and Coverage Evaluation survey, 
whether that can add to the accuracy with which we can produce 
estimates for congressional districts, which are a pretty 
sizable hunk of geography. Now, that's what we're engaged in 
right now. We don't have any preconceived notion about that 
other than, in concept, it ought to work, but in practice we 
need to see.
    So that's where we are, and it's really an effort to see if 
we can make a good census even better.
    Mr. Miller. But if you have a bad census and good ACE, it's 
easy to argue the adjustment. You could argue the adjustment, 
not counting the legal and social costs of it. I mean, it's 
more than just a statistical question, as I have said.
    Mr. Barron. Right.
    Mr. Miller. But with a good census it really is harder to 
justify adjustment.
    Mr. Barron. A good census makes our job tougher in terms of 
discerning, I guess some statisticians might call it, ``signal 
from noise.'' We have done a very good job. So now as we 
approach--I don't want to say perfection because I'm not sure 
anybody will ever get to ``perfection,'' and I don't want the 
2010 census people to come find me wherever I am and lynch me--
but I think if you have done a very good job applying the ACE, 
distinguishing improvement from noise becomes tougher, but 
that's the task ahead of us.
    Mr. Miller. Good job of counting 99 percent of the people, 
and so the question is do we add this other factor or problem.
    Mr. Barron. Right.
    Mr. Miller. Let me refer to this quote of Director Prewitt 
that said that you would not adjust if you had a good census. 
``You've got the possibility of a good census and good ACE, 
under those circumstances would we adjust? Probably not, 
because why pay the social costs and the confusion concerns and 
so forth.''
    Let's think about the social costs, the confusion and 
concerns for just a minute. We know that a traditional head 
count has always been legal, but an adjusted census may not be. 
We know that a traditional head count has always been 
constitutional, but an adjusted one may not be. We know that 
the traditional 2000 census is probably the lowest error in 
history, but that adjustment would have its own error.
    Let me stop there and ask you a question about sampling 
error. Would you explain sampling error and the problems it can 
introduce into the adjustment process?
    Mr. Barron. Well, in general, sampling error would be the 
difference between the value of a population if you could count 
or enumerate every member of that population, and the noise you 
get from having selected a sample.
    I think one of the issues in play here in anticipating what 
might have happened from 1990 is that our statisticians have 
designed and we have executed an Accuracy and Coverage 
Evaluation survey, which is an excellent survey. I mean, it's 
really been an impressive survey effort with double the sample 
size of the 1990 PES. So in this particular case we've, I 
think, confronted head on the issue of sampling error as 
applied to the issue in front of us for adjustment in 2000. 
We're not done looking at it yet, but I think variance or 
sampling errors are probably not going to be an issue for us as 
we look at this adjustment issue.
    Mr. Miller. In the census that we've just conducted, there 
is no sampling error.
    Mr. Barron. There are other kinds of errors.
    Mr. Miller. But they're not sampling errors.
    Mr. Barron. Right.
    Mr. Miller. But there's no sampling error. I mean, we have 
the nonsampling error.
    Mr. Barron. Right.
    Mr. Miller. When you adjust, you introduce sampling error; 
is that correct?
    Mr. Barron. Yes, there would be an error. And if we can't 
discern improvement from no improvement, then that would be a 
reason for us not to adjust. On the other hand, if we think we 
can improve the estimates, then from a statistical perspective, 
not these other perspectives, but from a statistical 
perspective, we would recommend adjusting.
    Mr. Miller. By adjusting you're introducing the whole error 
issue of sampling error to your data.
    Mr. Barron. Right.
    Mr. Miller. Mr. Souder was talking about the block level 
data all the way up to the State population and the Nation's 
population. I mean, you're introducing a whole new set of 
problems, and that's part of the tough choices that you're 
facing, but----
    Mr. Barron. It is.
    Mr. Miller. Not counting the legal and social cost 
problems, but you're introducing a totally new set of problems 
that have never been in the census as sampling error. Isn't 
that a serious concern, introducing sampling error into the 
whole set of numbers?
    Mr. Barron. We will be able to frame that and describe that 
for people, Mr. Chairman. We're still in process, so I haven't 
reached a conclusion on this, but my sense is that sampling 
error is probably the least of our concerns because we will be 
able to frame that and describe that to people as we do for the 
Current Population Survey or other sample surveys that the 
government does. So I'm not--you know, I don't believe that 
that's a problem for us here.
    Mr. Miller. OK. Thank you.
    Mr. Clay.
    Mr. Clay. Mr. Barron, as you testified, the Bureau released 
the apportionment total for the States on December 28th. Do you 
have any comments you'd like to share with us, or did you see 
any surprises in the data as it came back?
    Mr. Barron. I suppose the only surprise, Mr. Clay, was that 
the total population estimate was bigger perhaps than people 
had anticipated, bigger than some of the estimates from other 
demographers, including our own. So I think that was perhaps a 
bit of a surprise, but I think we were very pleased with the 
results, and we had worked with folks from the States to look 
at those numbers before they were published, and I think we 
were very pleased.
    Mr. Clay. Mr. Barron, have you discussed with the Secretary 
the rule currently in place which governs the decisionmaking 
process on whether or not to release corrected data?
    Mr. Barron. Only in a very, very general way. I have spent 
much more time talking to the Secretary about the building in 
Suitland that we inhabit that needs improvement, and I have 
talked with him about the data that we released today not from 
the perspective of the rule at all, but from the perspective of 
I think we've done a good job, you should know about this. I 
will also acknowledge that in briefing him on this, which was 
at my request, by the way, my sense was the data was going to 
leak, and I guess it did.
    Mr. Clay. And so you are operating under the assumption 
that those rules will remain in place until your process is 
completed?
    Mr. Barron. Mr. Clay, I have no information to the 
contrary.
    Mr. Clay. Thank you. Thank you.
    Mr. Miller. Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    You mentioned earlier that you were part of discussions 
about the legality--or not legality, but the practicality of 
counting people who are temporarily overseas. Who else was part 
of those discussions?
    Mr. Barron. I'm sorry, Mr. Cannon, if I misspoke. I was 
describing to you my understanding of discussions that took 
place. I was not involved in those personally. I was recounting 
history to you as best I understand it.
    Mr. Cannon. But you heard that, I take it, from other 
Bureau personnel?
    Mr. Barron. Yes. Actually on the issue of adding the 
military and Federal civilians in 1990, there is some 
correspondence on that between the then Secretary of Defense, 
who I believe is now the Vice President, and others encouraging 
the Census Bureau to do so.
    Mr. Cannon. You don't know if the issues of the violation 
of the apportionment clause or the free exercise clause or the 
equal protection clause of the Constitution were every 
considered in that process then?
    Mr. Barron. No, sir. I'm sorry, I can't speak to that.
    Mr. Cannon. And on the same line you--were you or Director 
Prewitt ever advised of a potential violation of either the 
Constitution or those clauses or the restoration of the 
Religious Freedom Act as it related to temporary missionaries 
in particular?
    Mr. Barron. No, sir, I'm not aware of any briefings or 
conversations on that.
    Mr. Cannon. Apparently someone has said somewhere that 
counting Americans temporarily overseas would be infeasible, 
unreliable, and prohibitively expensive. Do you know if there's 
any factual basis in the Department for that conclusion?
    Mr. Barron. Well, there was a hearing on the issues 
surrounding counting Americans overseas last--I think it was 
last--I'm sorry if my memory's failing me on exactly when that 
was.
    Mr. Cannon. I'm more concerned not with the hearings, but 
with the internal discussions in the Department.
    Mr. Barron. It is extremely difficult. So the flavor of 
those remarks is something that I think I have heard, because 
it's a daunting task to figure out how we might count Americans 
overseas for the most part.
    Mr. Cannon. The daunting task would include the difficulty 
of counting military and their dependents and other Federal 
workers?
    Mr. Barron. At least in that case there's a source we know 
about, and I think in some other cases, probably the Mormon 
Church, they probably have very good records. In lots of other 
cases, there are no records.
    Mr. Cannon. Did you ever communicate with the Mormon Church 
or any other churches about their records of Americans overseas 
temporarily?
    Mr. Barron. No, sir.
    Mr. Cannon. Let me jump to another matter, which I'm sure 
will please the chairman and others. I am disturbed that 
there's possible politicalization of the Bureau or of staff 
there with apparently their own agenda opposed to that of the 
administration and the congressional majority. Last week, for 
instance, a Census Bureau staff member in the public affairs 
office sent to various State Governor liaisons a highly 
political press release by Congresswoman Maloney. It actually 
was an attack on the Bush administration. I think there's an 
attached copy of that, which is, you know, fine for--you know, 
Congresswoman Maloney and I disagree on issues, and that's 
appropriate here, but probably not for the Bureau. Is it--is 
there--do you have policy dealing with what kinds of things 
should go out from the Bureau?
    Mr. Barron. There is a policy, Mr. Cannon. First, let me 
say that I apologized for that, and I apologize again. That was 
inappropriate. The policy is that we use that mechanism to 
distribute Census Bureau press releases and products, and since 
that matter was brought to my attention, we emphasized that 
policy. I think most people understand that. We had a lapse in 
judgment here, which I regret.
    Mr. Cannon. And what was the response with that employee? 
Was he reprimanded? Was the matter investigated?
    Mr. Barron. The matter has been investigated. I must say to 
you I've had such an exciting week, I don't know much beyond 
that, but I am confident that it's not going to happen again.
    Mr. Cannon. Do you know if anything similar has occurred 
with the employee who sent out that press release in the past, 
or is this just a one time matter?
    Mr. Barron. I don't know, sir. My understanding is this was 
a one-time matter.
    Mr. Cannon. Great. Thank you. I appreciate your being here, 
your candid answers and very clear answers, and I yield back, 
Mr. Chairman.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. Thank you. Thank you, Mr. Chairman.
    Mr. Barron, I would like to go through a series of 
questions and see if you have a number to give us, and if you 
don't know, then for the record just merely state that you 
don't know.
    First of all, do you today know the total number of 
erroneous enumerations?
    Mr. Barron. No, ma'am, we don't.
    Mrs. Maloney. You do not know?
    Mr. Barron. We do not know.
    Mrs. Maloney. Do you know the total number of duplicates?
    Mr. Barron. We have some estimates of duplicates, and I 
think if you give me a second, I can give you that number.
    Now, duplicates does cover a number of things, but because 
in this census we went out of our way to be inclusive in terms 
of constructing our address list, we anticipated that we could 
have a problem with duplicate addresses, and our estimate of 
this is that we had about 2.4 million of those. And having done 
some, I think, very creative and innovative work, we looked at 
that number, and we have deleted about 1.4 million of them as 
being duplicates and have maintained or retained about 1 
million records.
    There's probably error in this somewhere, Mrs. Maloney, but 
we're pretty confident that we've done a good job with dealing 
with this issue.
    Mrs. Maloney. Is the ACE program the only way to correct 
these duplicates?
    Mr. Barron. The ACE is a very excellent way of dealing with 
this problem, and it also in its estimation structure deals 
with the variance that's attributed to duplicates as we go 
through the census process.
    Mrs. Maloney. Do you know the net undercount for New York, 
California or Florida?
    Mr. Barron. No, ma'am, we do not know that at this point.
    Mrs. Maloney. Do you know the total number of African 
Americans missed?
    Mr. Barron. We have a range estimate, but as our press 
release today indicates, we don't have a precise number for 
that now, but we do have a range. I can give you the numbers 
associated with the range if you wish.
    Mrs. Maloney. I have that, but the point is you just have a 
range, but it could be defined more with the ACE program, 
correct?
    Mr. Barron. No. As a result of the ACE, this is going to be 
the range. So we're pretty confident that the final number is 
going to be within that range, and we will have a point 
estimate as we did----
    Mrs. Maloney. There's no way that you're going to define 
this any more; you're just going to have a range?
    Mr. Barron. No. We'll end up with what we had in 1990, 
which is a point estimate. There always is a range surrounding 
a point estimate. Since we're still in process, we thought we 
would do what was done in 1990, by the way. In 1990, when this 
information was first produced, a range was published, and 
we've replicated that process this time.
    Mrs. Maloney. Do you have the total number of children 
missed?
    Mr. Barron. We don't have a number now, no.
    Mrs. Maloney. Do you know whether the improvements in 
counts of minorities took place in cities, suburbs or rural 
areas, or what the differentials are in those counts and those 
geographic areas?
    Mr. Barron. I don't, but the information that we're going 
to put up for your staff and others to look at as part of our 
oversight of our process in conducting the final stages of the 
census will be available very shortly.
    Mrs. Maloney. So you don't have that information now, but 
it will be available shortly?
    Mr. Barron. Yes, yes. Actually on all these things it will 
be available shortly, but that one is coming up very shortly, 
probably within a day or so.
    Mrs. Maloney. About how many different metrics or measures 
of accuracy will the ESCAP committee consider before making a 
decision on whether or not to correct the raw count?
    Mr. Barron. I don't have a count for you, Mrs. Maloney. 
There's a pretty strong array of measures that statisticians 
have arrived at to examine both the accuracy of the census, the 
accuracy of ACE, and when you try to adjust the census count 
with the ACE, whether you're in effect adding value or not. So 
there is a set of measures, but I have not counted.
    Mrs. Maloney. So at this point there's still a considerable 
amount that the Census Bureau does not know, so you need to 
complete your work basically?
    Mr. Barron. We need to complete our work.
    Mrs. Maloney. And if you were asked today to give your 
recommendation on whether to adjust, would you have enough data 
to make that decision?
    Mr. Barron. Today?
    Mrs. Maloney. Uh-huh.
    Mr. Barron. No, ma'am. I think we have enough data coming, 
but what we've not done is completed our analysis and review of 
that data, and that's the real challenge we have before us over 
the next 2 weeks.
    Mrs. Maloney. And you will have that information. So you're 
still very much in a work in progress which you need to really 
get more information, to get more accurate information?
    Mr. Barron. Very much so.
    Mrs. Maloney. I just want to note that in this subcommittee 
press release, Dr. Prewitt is quoted not once, twice, not three 
times, but four times, and I'd just like to reiterate my 
request that he be called to this committee to speak for 
himself. Thank you.
    Mr. Miller. We all use quotes from different sources. This 
was one that was pulled off the Web. It's a public forum. It's 
kind of a funny thing to question, you don't get a quote to 
use.
    But one of the issues that was brought up was the count of 
children in 1990 was a problem, and I believe we've had a great 
success on children. Would you comment about that first?
    Mr. Barron. Well, while we don't have the final numbers, 
and our press release does deal with a range, it looks like 
we've made very significant improvement in what's been 
recognized as a serious problem, which is the undercount of 
children. Last time the undercount was over 3 percent, and this 
time we estimate that when our efforts are completed, the 
undercount of children is going to be somewhere within the 
range of 1.2 to 1.9 percent. So that's a big improvement over 
the past. It is still there. It's still a problem, and again, 
just because we've improved something doesn't mean I'm saying 
that we're going to rest on our laurels. But it's an 
improvement, and we ought to, I think, recognize it.
    Mr. Miller. That is a huge improvement, and we're very 
pleased about that.
    You're operating under a regulation that specifically 
delegates the adjustment decision from the Secretary of 
Commerce to the Census Bureau Director, correct?
    Mr. Barron. Yes.
    Mr. Miller. For the record, is a position of Census Bureau 
Director a political position?
    Mr. Barron. Yes, it is.
    Mr. Miller. Are you a political appointee or career civil 
servant, and how long have you served in the government?
    Mr. Barron. I'm a career civil servant, and I began in the 
government June 17th, 1968.
    Mr. Miller. For the record, are you serving as the Acting 
Census Bureau Director, or have you been confirmed as Census 
Director?
    Mr. Barron. I'm an Acting Census Bureau Director.
    Mr. Miller. Now, since there is no official Census Bureau 
Director, how does the law work? Does the adjustment decision 
now fall to you, the Acting Director, a civil servant?
    Mr. Barron. My understanding is that it does, Mr. Chairman. 
My further understanding is that there was a law passed within 
the past several years that dealt mostly with recess 
appointments, but it somehow reinforces the idea that I would 
be an Acting Director. I'm not sure I understand that. I'm just 
doing the best I can, but I think the role I have been playing 
in census 2000, at least in terms of managing us through to 
completion, means I can do that, but in terms of Directors and 
Acting Directors I don't define those things.
    Mr. Miller. The census numbers you released in December 
were unadjusted State-level population totals for apportioning 
the 435 seats in the House of Representatives. The numbers to 
be released next month are the population totals at various 
geographic levels of redistricting, for redistricting. The 
million-dollar question before you is whether these numbers 
should be adjusted. What are the various geographic levels 
census data is distributed for, and how many people are in 
those different geographic levels, starting with blocks and 
working our way up?
    Mr. Barron. I'm not sure I'm going to be able to answer 
that question completely. We do start with blocks, tracts, and 
there are various geopolitical units going up.
    Mr. Miller. What's the average size of a block and a tract, 
for example?
    Mr. Barron. I believe a block is--you know, I don't know.
    Mr. Miller. Mr. Thompson maybe could even chime in, the 
average block--how many tracts.
    Mr. Thompson. About 9 million blocks.
    Mr. Miller. About 9 million blocks.
    Mr. Thompson. They vary in size, but we use an average 
sometimes of 30 housing units per block. There's 60,000 census 
tracts. And we use an average of around 1,000 housing units.
    Mr. Miller. About how many you say within a tract, about 
1,000?
    Mr. Thompson. 1,000 to 2,000 housing units.
    Mr. Miller. Whereas in a block there's varying numbers.
    Mr. Thompson. Well, blocks vary considerably in size. For 
planning purposes sometimes use an average of 30 housing units 
per block. In urban areas it's bigger than 30. In rural areas 
it's less than 30.
    Mr. Miller. For the adjustment decision about to be made, 
what's the smallest number of geography that the Bureau 
considers important to know whether adjustment improves 
accuracy? What are you focused on, what level of accuracy?
    Mr. Barron. The level that we're focused on for this 
process that we're engaged in is the level of the congressional 
district. That's all that we're focused on at this time. At 
some subsequent point, we'd like to address the issue of what 
is the best data set to use for survey controls and things like 
that, but that would be later. Right now it's the congressional 
district decision that is the object of our attention.
    Mr. Miller. But your focus is on block level accuracy, 
tract level accuracy; what's the next level above tracts in the 
hierarchy? What's the accumulation of tracts?
    Mr. Thompson. At that point there's really not a higher 
level--you have counties, you have places, you have voting 
districts.
    Mr. Miller. So is your focus on tracts or blocks?
    Mr. Barron. The focus is on congressional districts. That's 
the focus.
    Mr. Miller. And congressional districts are made of blocks?
    Mr. Barron. Some of blocks.
    Mr. Miller. And the Constitution, as the Supreme Court 
ruled, is one man, one vote, and every congressional district 
has to be essentially the exact same size as another 
congressional district in that State, and in order to get that 
exact number--I mean, our districts cannot vary within our 
States by more than a couple of people. You have to work with 
block data, right? I mean, I guess you don't deal with 
redistricting, but the point is block data, one block at a time 
is what we work with. We don't have a defined county we work 
with. We work with a block here and block there, and we add the 
blocks together, and the concern we have with block level data 
is the accuracy is not there.
    Back in 1990, since this is--the Cape report said that for 
population areas of 100,000 or less, you cannot tell if 
adjustment improves accuracy; is that right? At populations of 
100,000 or less, you cannot tell whether that improves 
accuracy?
    Mr. Barron. I believe that's what that report said, yes, 
and you know, the issue before us now, Mr. Chairman, is whether 
when you get to something that's as large as a congressional 
district, can you tell. I mean, that's the decision that we're 
facing, and we think you can, but that remains to be proven.
    Mr. Miller. Is block level data better adjusted or 
unadjusted? I mean, that's what we work with.
    Mr. Barron. I would say----
    Mr. Miller. Maybe going back to 1990. I know you don't have 
the answer for 2000.
    Mr. Barron. We're looking at the issue of whether 
congressional districts are better when you add the blocks 
together. This other issue is something I'd have to go consult 
with my experts on and get back to you.
    Mr. Miller. One of the problems Mr. Souder brought up, and 
it's something that's not our focus constitutionally, we're 
looking at congressional districts, but I have got cities in my 
district that are very small. The total population of Anna 
Maria Island--there's three cities on one island in my area. 
There's just a couple thousand people in each city, and they 
have to draw city council districts, and there's no question, 
but, you know, you're working with a total city population of 
2,500 people, and you divide it up into five city council 
districts, what would they use, adjusted or unadjusted data?
    Mr. Barron. I don't think I have a recommendation for them 
when you work with something that small.
    Mr. Miller. When you only have 2,500 people in the total 
population, you have real problems if you try to use adjusted 
data, I would think. It's well below 100,000.
    Mr. Barron. I think at that level everything these people 
have access to is going to have a certain amount of noise, and 
what we're doing is trying to provide better estimates for a 
higher level of aggregation.
    Mr. Miller. Are you more focused on block or tract level? I 
know you keep saying you're focused on congressional districts, 
but you have got to look at those two levels of data. Which is 
the one you're trying to decide or making the decision process 
on?
    Mr. Barron. The decision process that we're working on 
basically takes blocks and adds them together, and then we 
determine whether that estimate, having aggregated the data, 
whether that estimate is better.
    Mr. Miller. Mr. Clay.
    Mr. Clay. Mr. Chairman, just one issue to raise; was 
wondering would we have an opportunity to hear from Dr. Prewitt 
at some time in the near future?
    Mr. Miller. That's definitely a possibility. He's always a 
very good witness.
    Mr. Clay. He sounds like he's the expert. Being a freshman 
Member of Congress, I'd like the opportunity to hear from him 
if possible.
    Mr. Miller. Director Prewitt deserves great congratulations 
for making the census so successful. We didn't always agree on 
every issue, but one thing I advocated was make sure we had all 
of the resources that the Bureau could use to get the most 
accurate census possible. Since I serve on that appropriations 
subcommittee, we agreed there. And so Director Prewitt did an 
outstanding job leading the Census Bureau during a very 
difficult time, and so I commend him on that, and if it's 
possible, we'll love to have him back.
    Mr. Clay. I would hope, just in conclusion, that--I would 
hope we would leave no American uncounted because it's so 
important as far as Federal resources, as far as highway 
redistricting that we have an actual count and an accurate one. 
And I think that's the key to a good census is that it is 
accurate, and I'd like to ensure somehow or have a level of 
comfort that we do have the most accurate count possible.
    Mr. Miller. Well, since 1790, when Jefferson did the first 
census, I think we can all probably say that this is the best 
census ever because it's hard even to comprehend what the 
census was like when the U.S. marshals did it--I think it was 
the U.S. marshals in 1790 or in the 1890's or something. And so 
we have a lot to be pleased with right now, but it's not 
perfect.
    Mr. Clay. No, it's not perfect.
    Mr. Miller. But we sure have made tremendous strides, and 
you all are to be congratulated.
    Mrs. Maloney.
    Mrs. Maloney. Yes. Mr. Thompson, getting back to the line 
of questioning of the chairman on the block level versus larger 
geographic areas, is there a legislative district in America 
that is made up of one block, Mr. Thompson?
    Mr. Thompson. I don't know if there's a legislative 
district made up of one block or not. I don't know the answer 
to that.
    Mrs. Maloney. Well, I can tell you that legislative 
districts, even the smallest ones, school districts, city 
council districts, are made up of literally thousands of 
blocks. That's what makes up a representative area. It's not 
one block, it is thousands of blocks, and have you not 
testified that the higher levels there are of geographic area, 
that ACE becomes more accurate?
    Mr. Thompson. Yes.
    Mrs. Maloney. Well, I think that's an important point.
    Now, I think that one of the themes that we keep hearing 
here today is the people talk that, you know, that we have a 
measurement that is more accurate, but it is this ACE 
measurement that is also the measurement used to correct for 
the undercount. So if it's accurate for the measurement, then 
it should be accurate for the use of correcting for the 
undercount.
    And I just have heard talks today, you know, at one point 
we think that maybe there's going to be an undercount of 
roughly 3 million, and at one point there was an undercount of 
4 million, and we know that 8 million was missed in the last 
census in 1990, and 4.4 were counted twice. But I think the 
main point is how many blacks and Hispanics does it take to be 
missed in a census for the Republican Party to agree that they 
should be corrected for the undercount, because in my--my 
position is that every person counts, and whether it's 8 
million or 4 million or 3 million or 2 million, all of these 
people should be counted, and if you're not counted, the 
injustice is more extreme, I would argue, than what happened in 
Florida.
    And the Florida fiasco will have a chance next year to go 
and vote again, and believe me, I truly believe that the 
corrections will be made, and every vote hopefully will be 
counted. But if people are missed in this census, it will be 10 
years before the correction can be made. If we don't correct 
for the undercount, there will be missed Federal dollars, there 
will be missed Federal representation, not to mention data is 
less accurate.
    So I just want to make a point that we need to count every 
American, and if there is an undercount, it should be corrected 
in general fairness and for what's at stake in representation 
and distribution of Federal funds.
    Thank you, Mr. Chairman.
    Mr. Miller. Mrs. Maloney, being from the big city of New 
York City, your jurisdiction areas within there are much larger 
than my area in southwest Florida, which is a beautiful area. 
But we have communities incorporating cities that have 1,500 
people in it, and so you start dividing up those areas--and 
there aren't a lot of blocks in those areas, and so there's no 
question I think that I would advise small communities to be 
very cautious if they were looking at adjusted data.
    But when you go through the redistricting process, it's one 
block at a time. It's not like it's a defined area like the 
State of Florida, the State of New York or the city limits of 
New York City. It is adding a block here, taking a block there, 
so we get the exact same numbers. And so you work with block 
data.
    And what you will argue is you add them all together, and 
the errors average out, but the bottom line is you're working 
with one block at a time, and that block by itself is not 
accurate when you start adjusting. So there's a legitimate 
debate about the accuracy of that data at the block level for 
redistricting purposes, and that's really what the 
constitutional purpose of the census is.
    Mr. Barron, I've finished.
    Does anyone else have anymore questions?
    Mrs. Maloney. I have one closing question, and I'd like to 
ask Mr. Barron it if I may.
    Mr. Director, John Kennedy and many others have said that 
defeat is an orphan, but success has 1,000 fathers. Real 
quickly, I'd like to ask you where some of the enhancements and 
improvements for this census 2000 plan came from. I want to 
know who were the key players. Was it the Census Bureau 
professionals, the National Academy of Sciences, Congress, the 
Commerce Department, the White House? I'd like you to designate 
where the idea and where these improvements came from, the 
redesigning of the form to make it more user-friendly?
    Mr. Barron. That was a Census Bureau idea.
    Mrs. Maloney. The optical scanning technology to read 
handwriting?
    Mr. Barron. That was a Census Bureau proposal.
    Mrs. Maloney, if I may, since John was involved in this 
more than I was, I was not there at the time, I want to ask him 
to respond to some of these if I may.
    Mrs. Maloney. OK. Certainly.
    Mr. Barron. Am I right so far? I'm two for two.
    The partnership program. I think the partnership program 
was a Census Bureau proposal, probably Commerce Department, but 
also the Census Bureau has strong advisory committees involving 
its partners. So I think that goes back in history. So maybe 
that's something that originates with lots of people.
    Mrs. Maloney. But basically the Census Bureau.
    Mr. Barron. Well, perhaps both.
    Mrs. Maloney. The advertising campaign.
    Mr. Barron. I don't know.
    Mr. Thompson. That was generated by the Census Bureau, but 
we got a lot of advice from our advisory committees and the 
Congress about paid advertising and how important it was. So I 
think that's something that came up in partnership, so I 
wouldn't want to claim it was the Census Bureau's idea only.
    Mrs. Maloney. But the Census Bureau in collaboration with 
advisers----
    Mr. Thompson. We certainly endorsed it and embraced it and 
went forward with it.
    Mrs. Maloney. Higher pay scales for enumerators.
    Mr. Thompson. That was our basic research that went into 
that.
    Mrs. Maloney. The three-part mailing of an advance letter, 
the form and the postcard?
    Mr. Barron. Census Bureau.
    Mrs. Maloney. So basically the major enhancements came from 
the Census Bureau.
    Congratulations on a job done well so far, and I wish you 
well in your remaining days to complete the work before you and 
to come forward with more accurate numbers and your 
recommendations.
    Mr. Barron. Thank you.
    Mr. Miller. I concur with Mrs. Maloney to congratulate the 
people at the Census Bureau for coming up with these ideas and 
implementing a very successful census. I am sorry that some of 
the recognition did not arrive for the individuals, but 
hopefully we will have some way we can make sure individuals 
are given the recognition they deserve.
    Mr. Barron, you are in a terribly unfortunate position 
today. An extremely important decision, one that has far-
reaching ramifications, is now weighing heavily on the 
shoulders of a dedicated, highly capable, career civil servant. 
I'm sure Congress did not mean for this to happen. The 
regulation seems to have intended--the regulation seems not to 
have intended it either, but both Congress and the regulation 
put the adjustment decision with political appointees, and you 
are not a political appointee. You are a civil servant with 30 
years of outstanding service at the Bureau of Labor Statistics 
before going to the Commerce Department 2 years ago. Thank you 
for the job you've done.
    Thank you, Mr. Thompson.
    On behalf of the subcommittee, I would like to thank you 
for appearing before us today. I ask unanimous consent that all 
Members' written opening statements be included in the record. 
Without objection, so ordered.
    In case there are additional questions that Members may 
have for our witnesses, I ask unanimous consent for the record 
to remain open for 2 weeks for Members to submit questions for 
the
record, and that the witness submit written answers as soon as 
possible. Without objection, so ordered.
    Thank you again. Meeting adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5289.021

[GRAPHIC] [TIFF OMITTED] T5289.022

[GRAPHIC] [TIFF OMITTED] T5289.023


</pre></body></html>
